OFFICE OF INSPECTOR GENERAL 

 for the Millennium Challenge Corporation



SURVEY OF THE MILLENNIUM 

CHALLENGE CORPORATION’S

TRADE CAPACITY BUILDING
PROGRAMS TO SUPPORT
IMPLEMENTATION OF FREE
TRADE AGREEMENTS
SURVEY REPORT NO: M-000-07-001-S
December 1, 2006




WASHINGTON, DC 

Office of Inspector General
 for the
Millennium Challenge Corporation

                                            December 1, 2006


The Honorable John Danilovich
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Ambassador Danilovich:

This letter transmits our final report on the subject survey. This is not an audit report and there
are no recommendations for your action. In finalizing this report, we considered your comments
on our draft report and have included them, in their entirety, in Appendix II of this report.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the survey.


Sincerely,

/s/
John M. Phee
Assistant Inspector General
Millennium Challenge Corporation




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
(This page is intentionally left blank)
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Survey Objectives ............................................................................................................. 3


Survey Results ................................................................................................................ 4 


Did the Millennium Challenge Corporation provide 

guidance to the field and host countries regarding

the reforms to be addressed in its trade capacity 

building programs?............................................................................................................ 4


Did the Millennium Challenge Corporation’s trade

capacity building programs support implementation 

of free trade agreements with developing countries? ....................................................... 5 


Did the 2006 National Export Strategy reflect the 

Millennium Challenge Corporation’s current and

planned trade capacity building 

accomplishments? ............................................................................................................ 7 


What is the status of Millennium Challenge 

Corporation’s small business trade matchmaking efforts?................................................ 7 


Evaluation of Management Comments ......................................................................... 9 


Appendix I – Scope and Methodology ........................................................................ 10 


Appendix II – Management Comments ....................................................................... 11 


Appendix III – Supplemental Table.............................................................................. 13 


Appendix IV – U.S. Government Trade Capacity

Building Categories and Definitions ........................................................................... 14 

(This page is intentionally left blank)
SUMMARY OF RESULTS

In response to a Congressional request, the Assistant Inspector General for the
Millennium Challenge Corporation (MCC) conducted this survey to review MCC’s trade
capacity building programs. We designed the survey to determine: (1) whether MCC
provided guidance to eligible countries regarding trade capacity building programs; (2)
whether MCC’s trade capacity building programs supported implementation of free trade
agreements with its compact countries; (3) whether the 2006 National Export Strategy
reflected MCC’s current and planned trade capacity building accomplishments; and (4)
the status of MCC’s small business trade matchmaking efforts (see page 3).

MCC’s mission focuses on promoting sustainable economic growth that reduces poverty
through investments in areas such as agriculture, education, private sector development,
and capacity building. While some of these areas could include components to enhance
the country’s capacity to trade, this is not MCC’s mission. As a result, the survey
concluded that MCC does not have a specific, identifiable trade capacity building
program and therefore, did not provide guidance to eligible countries in regards to trade
related activities (see page 4). Furthermore, MCC’s programs do not directly support
free trade agreements although the countries’ proposed programs may complement
established trade agreements (see page 5). In addition, the 2006 National Export
Strategy report does not reflect MCC’s current and planned trade capacity building
accomplishments (see page 7). Finally, MCC does not have a small business trade
matchmaking program but encourages the participation of small businesses in
procurement ventures that will enable the small businesses to compete with larger firms
on an even basis both in the U.S. and overseas (see page 7).

There are no findings or recommendations for MCC’s actions in this report. In response
to our draft report, MCC agreed with our results and conclusions in the survey.

Management comments are included in their entirety in Appendix II (see page 11).




                                                                                       1
BACKGROUND
The United States (U.S.) is the largest single-country provider of trade related assistance,
and plans to more than double its contributions to global Aid for Trade.1 Since 2001, the
U.S. Congress has approved free trade agreements (FTAs) with 12 countries. Free trade
agreements are enforceable contracts between two or more nations that reduce or remove
barriers to trade and reciprocate preferential market access. The U.S. trade strategy is to
pursue multiple market-opening initiatives on a global, regional, and bilateral basis that
establishes models of success. Part of the strategy is to assist developing countries by
implementing trade capacity building activities.

Trade capacity building (TCB) programs assist developing countries by building trade
competitiveness, improving standards in traded goods, and improving customs procedures.
U.S. trade capacity building activities are categorized as: physical infrastructure
development, financial sector development and good governance, trade related agriculture,
and business services and training. In order to track U.S. government trade capacity
building related programs in developing countries, the U.S. Agency for International
Development (USAID) began maintaining a U.S. government database, called the trade
capacity building database (TCB database), in 2001.2 USAID has updated the database
since 2001 and uses the data to provide information to Congress, the Executive branch, as
well as international organizations such as the World Trade Organization (see Appendix IV).

The Millennium Challenge Corporation’s (MCC) mission focuses on promoting sustainable
economic growth that reduces poverty through investments in areas such as agriculture,
education, private sector development, and capacity building. In this vein, MCC provides
monetary assistance—through compact agreements and threshold agreements—to eligible
countries that have developed well-designed programs. These programs are developed by
the country in consultation with the country’s citizens.   While some of the country’s
proposed programs may include components to enhance the country’s capacity to trade,
MCC does not have a specific trade capacity building program or require such programs of
the countries with which it works.

During 2005, MCC reported, in the TCB database, $368.9 million3 as the amount of funding
for TCB-related activities for three countries; namely, Madagascar, Honduras and Nicaragua
(see Appendix III). These activities were primarily related to infrastructure and agriculture
projects.




1
 Aid for Trade refers to the provision of assistance by the international community to help countries

address supply side constraints to their participation in international markets and to cope with 

transitional adjustment costs from liberation. 

2
 USAID is responsible for maintaining this database and disseminates annual reporting guidance,

called The Online Survey User’s Guide, to the participating U.S. Government agencies. The database

is located at http://qesdb.usaid.gov/tcb/index.html. 

3
 This data is unaudited. 





                                                                                              2
SURVEY OBJECTIVES
The Assistant Inspector General for the Millennium Challenge Corporation conducted this
survey in response to a Congressional request. The survey was designed to answer the
following questions:

•	 Did the Millennium Challenge Corporation provide guidance to the field and host
   countries regarding the reforms to be addressed in its trade capacity building programs?

•	 Did the Millennium Challenge Corporation’s trade capacity building programs support
   implementation of free trade agreements with developing countries?

•	 Did the 2006 National Export Strategy reflect the Millennium Challenge Corporation’s
   current and planned trade capacity building accomplishments?

•	 What is the status of the Millennium Challenge Corporation’s small business trade
   matchmaking efforts?




                                                                                      3
SURVEY RESULTS

Did the Millennium Challenge Corporation provide guidance to the
field and host countries regarding the reforms to be addressed in
its trade capacity building programs?
The Millennium Challenge Corporation (MCC) does not provide guidance to eligible
countries regarding reforms to be addressed in trade capacity building (TCB) programs.
MCC promotes country ownership, which means the country is responsible for defining and
implementing the programs. As a result, MCC does not impose any projects, including trade
related activities, on the country. Countries such as Nicaragua, Honduras, and Madagascar
may propose projects such as infrastructure and agriculture development, which may
enhance the country’s ability to trade. When this occurs, and as with other projects, MCC
discusses the trade related projects with the country and may provide advice to the country
regarding ways to improve the program. Furthermore, if MCC finds constraints to the
proposed projects, it may develop conditions in the country’s compact, which will require the
country to address those constraints before moving forward with implementing the project.
For example, before signing a compact with Nicaragua, both MCC and the Nicaraguan
government found several barriers to the proposed project, such as the country’s sanitary
standards and seed imports which can be considered as barriers to trade. MCC then
included the resolution to these constraints as conditions precedent4 in the compact.

MCC officials stated that in identifying its TCB-related activities in a compact country, they
employed the use of the TCB Users’ Guide5 and matched projects in the compact to the
TCB categories in the guidance. In fiscal year 2005, MCC identified TCB-related activities in
three compact countries—Honduras, Madagascar, and Nicaragua—totaling $368.9 million
(see figure 1). In Madagascar, the agricultural business investment project fits under the
TCB categories of business services and training, other trade facility, and trade related
agriculture. Similarly in Honduras, the transportation project fits under the TCB category for
physical infrastructure and one of Nicaragua’s proposed projects—rural business
development—fits under the TCB category for business service training and trade related
agriculture (see Appendix IV for definitions of TCB categories). Furthermore, in fiscal year
2006, MCC obligated a total of $594.5 million for TCB-related activities, to five compact
countries—Cape Verde, Benin, Vanuatu, Armenia, and Georgia.6




4
 Conditions that the country must resolve before receiving disbursements from MCC and
implementing the compact projects.
5
 The FY 2006 Users’ Guide lists reportable (and non reportable) activities that can be included in the
TCB database.
6
 This 2006 information is unaudited and based on preliminary data from the U.S. Government’s TCB
database. As of the date of this report, MCC’s 2006 total reported funding for TCB activities was not
available.


                                                                                                4
Figure 1

                FY 2005 Compact Countries with TCB-related Activities




           $123,400,000
                                                                                Honduras
                                                                                Madagascar
                                                         $193,107,000           Nicaragua

                 $52,459,000




MCC also works with the United States Trade Representative (USTR)—who is a
member of the MCC’s board of directors—whose goal is to increase trade between the
U.S. and other countries. While the USTR does not provide guidance to MCC on
promoting TCB activities in the countries, the USTR does provide its expert knowledge
to enhance the programs. When MCC reviews a country’s proposal that contains TCB-
related activities, it shares the proposals with the USTR in order to get input or advice on
what the country should do to enhance the proposed trade-related projects for increased
sustainability and economic growth. Additionally, MCC was also invited to several
meetings that the Trade Promotion Coordinating Committee (TPCC) held, however,
TPCC does not provide any guidance on trade capacity building to MCC.7


Did Millennium Challenge Corporation’s trade capacity building
programs support implementation of free trade agreements with
developing countries?
The Millennium Challenge Corporation’s trade capacity building (TCB) related programs
do not directly support the implementation of free trade agreements; however, some
countries’ proposed projects complement the countries’ implementation of established
free trade agreements.

In 2004, the U.S. signed the Dominical Republic-Central America Free Trade Agreement
(DR-CAFTA) with the Dominican Republic and five Central American countries, to
encourage trade liberalization.8 Of the six countries, MCC has committed to provide
assistance funding to two—Nicaragua and Honduras. According to MCC, TCB-related
programs in both countries, such as transportation projects complement what DR
CAFTA is trying to achieve.


7
 The TPCC is an interagency group chaired by the U.S. Secretary of Commerce established to

coordinate the export promotion and financing activities of the U.S. Government. 

8
 DR-CAFTA is a regional multilateral FTA between the governments of the U.S. and Costa Rica,

the Dominican Republic, El Salvador, Guatemala, Honduras, and Nicaragua. 




                                                                                            5
In Honduras, MCC has committed to provide approximately $193 million in compact
assistance funds for a rural development project and a transportation project. The goal
of the rural development project is to increase productivity and improve competitiveness
of small and medium-sized farmers. This project includes farmer training and
development activities in production and marketing of high value horticulture crops,
access to credit, construction and improvement of feeder roads, and provision of grant
funds for agricultural projects. For the rural development project, MCC allocated $14
million, which falls under the financial sector development and good governance TCB
category, $21 million, which falls under the physical infrastructure development category,
and $35 million, which falls under the trade-related agriculture category (see Table 1).

The transportation project seeks to improve Honduras’ highway system. MCC funding
will finance the upgrade of key secondary routes to improve the access of rural
communities to markets. The poor condition of the roads currently undermines the
competitiveness of producers by causing high costs in vehicle operation, maintenance
and spoilage of produce. MCC officials confirmed that, according to the TCB Online
Survey User’s Guide, the transportation project aligns well with developing necessary
infrastructure for trade. However, it is difficult to determine if the rural development
project is a trade related activity because there are no specific requirements that the
farmers have to export their products, although some of them may.


  TABLE 1: Millennium Challenge Corporation (MCC) Funding by TCB Categories
                                      for Honduras
                  TCB Categories                        FY 2005
 Financial Sector Dev. & Good Governance                         $14,137,200
 (Activities include Rural Development Project)
 Trade-Related Agriculture (Activities include                   $35,343,000
 Rural Business Development Project)
 Physical Infrastructure Development (Activities                 $21,205,800
 include Rural Development Project)
 Physical Infrastructure Development (Activities                $122,421,000
 include Transportation Project)
 TOTAL FUNDING                                                  $193,107,000

In Nicaragua, MCC has committed compact assistance funds of approximately $123
million for a transportation project and a rural business development project. MCC will
allocate $92.8 million from the compact for the transportation project, which will support
the improvement of roads linking producers and consumers to Honduras and El
Salvador as well as urban centers in Nicaragua. According to MCC, this project
complements economic growth strategies such as the DR-CAFTA and supports TCB-
related activities under the physical infrastructure development TCB category. In
addition, MCC will fund the rural business development project, which will, among other
things, enable the country to produce high-value goods and establish a Rural Business
Development Center. Furthermore, MCC officials stated that the rural development
project complements the TCB activities as described in the TCB guidelines. As part of
this project, $17 million falls under the business services & training TCB category and
$13 million under the trade-related agriculture category (see Table 2).




                                                                                    6
     TABLE 2: Millennium Challenge Corporation (MCC) Funding by TCB Categories
                                         for Nicaragua
                    TCB Categories                         FY 2005
    Trade-Related Agriculture (Activities include                   $13,158,000
    Rural Business Development Project)
    Business Services & Training (Activities                        $17,442,000
    include Rural Business Development Project)
    Physical Infrastructure Development (Activities                 $92,800,000
    include Transportation Project)
    TOTAL TCB                                                      $123,400,000


Did the 2006 National Export Strategy report reflect Millennium
Challenge Corporation’s current and planned Trade Capacity
Building accomplishments?
The 2006 National Export Strategy (NES) report does not reflect MCC’s planned trade
capacity building accomplishments, but reports on MCC’s current TCB activities from
fiscal year 2005.9 Although MCC did not report it’s current and planned TCB
accomplishments to the Trade Promotion Coordinating Committee (TPCC)—an
interagency group that prepares the report—TPCC incorporated 2005 data that MCC
reported in the TCB database. MCC annually submits data to this database on compact
agreements it has signed with countries over the past fiscal year. Furthermore, MCC
officials stated that because the projects are designed by the country, MCC cannot
report on planned TCB-related activities because these activities are driven by the
eligible countries and are not known until the compact is signed.

The NES report also provides information on MCC’s coordination with other U.S.
governmental agencies such as the Overseas Private Investment Committee (OPIC)
and the Office of the United States Trade Representative (USTR) and various private
sector corporations.


What is the status of Millennium Challenge Corporation’s small
business trade matchmaking efforts?

The Millennium Challenge Corporation (MCC) does not have a formal small business
trade matchmaking10 program, it does however, involve small businesses in contracting
ventures both domestically and internationally, by ensuring that small businesses can
compete with larger businesses for MCC contracts. MCC has established small
business goals for domestic contracts and reports annually to the Small Business
Administration on achieving those goals. According to MCC officials, in fiscal year 2006,

9
 The NES is a mandated annual report prepared by the Trade Promotion Coordinating
Committee (TPCC) and submitted to Congress. The TPCC issued the 2006 NES report in June
2006 and reported on fiscal year 2005 data.
10
   From 1996 to 2004, USAID funded the Global Trade and Technology Network (GTN), an
internet-based database that created alliances (“matchmaking”) between U.S. and host country
businesses.


                                                                                      7
MCC set and achieved its small business goal of 23 percent of its contracts awarded to
small businesses in the U.S. For contracts awarded outside the U.S., the Federal
Acquisition Regulation (FAR), Part 19, exempts MCC from setting small business goals
if the performance is outside the U.S.; however, MCC continues to provide small
businesses with the opportunity to compete with larger firms. For example, MCC
developed procurement guidelines to ensure that compact countries do not exclude U.S.
small businesses from competing for contracts. In addition, because most small
businesses may not be able to afford to pay to access these notices, MCC provides free
access to its advertisements on several websites, including Development Gateway
Marketplace which can be accessed easily through links posted on the MCC website.




                                                                                 8
EVALUATION OF
MANAGEMENT COMMENTS
MCC provided written comments to our draft report that are included in their entirety as
Appendix II. Overall, MCC management concurred with the results and conclusions of
our survey and provided additional clarifications on certain areas as identified below.

In response to the first survey objective, MCC agreed with the report and stated that it
does not proactively encourage or instruct eligible countries to propose assistance in
trade capacity building. However, MCC does welcome proposals that include trade
capacity building assistance and work closely with eligible countries to fund these types
of projects. MCC also stated that it has obligated $963 million for trade capacity building
activities in its first eight compacts, representing over 63 percent of the total amounts
obligated for these compacts.

In response to the second survey objective, MCC agreed that it does not provide
narrowly-focused technical assistance to help its partner countries. However, MCC’s
assistance to Honduras and Nicaragua will enable these countries to utilize the
Dominican Republic-Central American Free Trade Agreement (DR-CAFTA) by providing
funding for infrastructure and agricultural development activities.

In response to the third survey objective, MCC stated that it coordinates closely with
other agencies that provide trade capacity building assistance, such as the U.S. Trade
Representative and the Administrator of the U.S. Agency for International Development,
who sit on the MCC Board. In addition, MCC has met with other members of the Trade
Promotion Coordinating Committee (TPCC), including the Export-Import Bank and the
Overseas Private Investment Corporation (OPIC) to discuss ways they could support
their respective missions.

In response to the fourth objective, MCC stated that it does not have a specific small
business trade matchmaking program, but in fiscal year 2006, it has achieved its goal of
awarding small businesses 23 percent of contracts awarded in the U.S. In addition, for
contracts awarded overseas, MCC ensures that both U.S. and foreign small businesses
have an equal opportunity to compete with larger firms by requiring partner countries to
use fully open and competitive procurement practices, and by providing access to all
MCC advertisements on several websites, including Development Gateway
Marketplace.




                                                                                         9
                                                                          APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Assistant Inspector General for the Millennium Challenge Corporation
(AIG/MCC) conducted this survey to fully comply with the generally accepted
government auditing standards. However, as this survey was not an audit, auditing
standards relative to such matters as evidence and reporting were not applied to this
survey. For example, because this was a survey engagement with a quick turn-around
timeframe, we did not design the survey to gather the same level of evidential data as
we would with an audit.

OIG/MCC conducted the survey in the Washington, DC, Nicaragua and Honduras. We
used the trade capacity building (TCB) database to determine our scope and the
countries to review. Although MCC reported information in the TCB database for three
compact countries, we selected two countries—Honduras and Nicaragua—that have a
bilateral trade agreement with the U.S. Our survey sample for these two countries
represented $316.5 million or 86 percent of the $368.9 million reported in the TCB
database. The survey fieldwork was conducted from October 6, 2006 to October 30,
2006.

Due to the presidential election in Nicaragua, we were unable to meet with contractors
involved in implementing MCC’s projects in the country. However, this did not adversely
impact the outcome of the survey.

Methodology
To answer the first objective, we conducted interviews with officials at the U.S. Trade
Representative (USTR), the Secretariat of the Trade Promotion Coordinating Committee
(TPCC), and MCC. In addition, we reviewed related documents to determine whether
MCC developed and communicated trade reform guidance to its offices in Compact
countries.

To answer the second objective, we conducted a site visit to Honduras and Nicaragua,
interviewed MCC and U.S. Embassy officials, and reviewed related documents.

To answer the third objective, we conducted meetings with MCC and TPCC officials, and
reviewed related documents, such as the 2006 National Export Strategy report.

To answer the fourth objective, we reviewed MCC’s small business matchmaking trade
activities as of September 30, 2006. In addition, we conducted interviews with MCC,
USTR, and TPCC officials. We also reviewed related documents pertaining to MCC’s
small business goals.

We did not determine materiality thresholds for our survey objectives, as they were not
appropriate to this survey.




                                                                                10

                                                                            APPENDIX II 




MANAGEMENT COMMENTS




MEMORANDUM	                                                        November 29, 2006


TO:    	      John Phee
              Assistance Inspector General for the Millennium Challenge Corporation

FROM:         	Mike Casella /s/
              Deputy Vice President for Administration and Finance

SUBJECT: 	    MCC Management Comments on Trade Capacity Building Survey


The MCC appreciates the opportunity to respond to the text and results of the survey.
The MCC agrees with the substantive results and conclusions of the survey of MCC trade
capacity building activities conducted by the Inspector General.

   •	 As the report states, MCC does not proactively encourage or instruct countries
      that are eligible for MCC compact assistance to propose such assistance in any
      sector or area, including trade capacity building. However, MCC welcomes
      proposals for trade capacity building assistance and works closely with eligible
      countries to fund their proposals for trade capacity building assistance. As a
      result, we have obligated $963 million obligated for trade capacity building
      activities in our first eight compacts, over 63 percent of the total amounts
      obligated for these compacts.
   •	 MCC does not provide narrowly-focused technical assistance to help our partner
      countries implement free trade agreements. However, as the report correctly
      states, MCC assistance to Honduras and Nicaragua will help these countries take
      advantage of the private sector growth opportunities provided by the Dominican
      Republic-Central American Free Trade Agreement (DR-CAFTA) by funding
      infrastructure and agricultural development activities. Our compact with El
      Salvador, which we will sign in the near future, will provide similar trade capacity
      building benefits to that country.
   •	 As the report notes, we coordinate closely with other agencies that provide trade
      capacity building assistance. The U.S. Trade Representative sits on the MCC
      Board, as does the Administrator of the U.S. Agency for International


                                                                                       11
                                                                           Appendix II


   Development. MCC has also met with other members of the Trade Promotion
   Coordinating Committee (TPCC), including the Export-Import Bank and the
   Overseas Private Investment Corporation, to discuss how we can work
   cooperatively to support our respective missions.
•	 While MCC does not have a specific small business trade matchmaking program,
   the report correctly notes that in fiscal year 2006, MCC set and achieved a goal of
   awarding to small businesses 23 percent of contracts awarded in the United
   States. For contracts awarded outside of the U.S., MCC ensures that both U.S.
   and foreign small businesses have an equal opportunity to compete with larger
   firms by requiring our partner countries to use fully open and competitive
   procurement practices, and by providing access to all MCC advertisements on
   several websites, including the Development Gateway Marketplace.




                                                                                12

                                                               APPENDIX III


Supplemental Table


 TABLE 1: Millennium Challenge Corporation (MCC) Compact Countries with TCB 

                                  Activities

   MCC Compact Countries with TCB-related                   FY 2005
                  Activities
 Honduras                                                        $193,107,000
 Madagascar                                                        52,459,000
 Nicaragua                                                        123,400,000
TOTAL TCB                                                        $368,966,000




                                                                         13
                                                                                          Appendix IV


U.S. Government Trade Capacity Building Categories and Definitions11

Types of activities that MCC should report as “trade capacity building”

      •	   Negotiating regional trade agreements
      •	   Eliminating subsidies or price controls in the trade sector
      •	   Improving trade statistics
      •	   Encouraging business support services for exporting and importing companies
      •	   Developing business information for export and import markets
      •	   Drafting commercial codes
      •	   Implementing antimonopoly policies
      •	   Designing consumer protection policies
      •	   Reforming government procurement
      •	   Improving sanitary/phytosanitary standards in traded goods
      •	   Promoting technology transfer to enhance trade
      •	   Removing technical barriers to trade
      •	   Applying rules of origin for trading purposes
      •	   Improving customs procedures
      •	   Developing a competitive workforce
      •	   Encouraging trade finance
      •	   Developing the financial sector
      •	   Achieving sound fiscal, monetary, and exchange rate policies
      •	   Developing necessary infrastructure for trade
      •	   Designing environmental standards and technology
      •	   Promoting investment agreements and investment protection mechanisms


Types of Activities that MCC should Not Report as “Trade Capacity Building”

      •	   Support to microfinance or micro enterprise institutions, unless it is specifically to promote
           the export of traditional handicrafts and other goods
      •	   General activities to increase agricultural productivity, unless it is specifically to promote
           the export of particular agricultural products
      •	   Technical assistance provided by a USG agency or unit but funded by the host country
           government or by a multilateral donor institution
      •	   Privatization activities, unless they affect enterprises in the trading sector or increase the
           availability of trade finance
      •	   Support to the development of natural resources, unless it is expected to foster cross
           border exchange of those resources
      •	   Assistance going directly to an economic country group that includes at least some non-
           developing country members, e.g., apec, unless it is aimed at only the developing country
           members
      •	   Support for energy sector policy and institutional reform, unless it is expected to expand
           export capacity either directly or indirectly
      •	   Support for improving governance and transparency at the local level of government
      •	   An activity designed to improve the effectiveness of a USG program itself, e.g., the
           appointment of senior advisors to facilitate decisions on program funding
      •	   Support for national parks and conservation, unless it is designed specifically to attract
           foreign tourism trade
      •	   Education activities, unless they are specifically designed to improve trade-related skills
           or knowledge of trade policy issues, e.g., introduction of international


11
     Source: The Online Survey User’s Guide


                                                                                                 14

                                                                                          Appendix IV



    •	   Accounting standards or World Trade Organization(WTO) rules workshops
    •	   Child survival activities
    •	   Civil society activities, unless they are specifically designed to increase citizen
    •	   Participation in trade policymaking


Trade Capacity Building Category Definitions

Trade Facilitation has six components:
   •	 Customs Operation & Administration is assistance to help countries modernize and
       improve their customs offices.
   •	 E-commerce Development & Information Technologies is assistance to help 

       countries acquire and use IT to promote trade by creating business networks and

       disseminating market information. 

   •	 Export Promotion is assistance to increase market opportunities for developing country
       producers.
   •	 Business Services & Training are support to improve the associations and networks in
       the business sector, as well as to enhance the skills of business people engaged in trade.
   •	 Regional Trade Agreement (RTA) Capacity Building represents assistance to an RTA
       or to an individual country that increases the ability of the RTA to facilitate trade. It can
       also include assistance to a potential member of an RTA that improves the analytical
       capacity of the country’s government with respect to RTA issues. It is not intended to
       include TCB assistance in a specific area that is being provided under the auspices of an
       RTA. For example, technical assistance to help COMESA facilitate trade among its
       member countries would be included in this component. However, technical assistance to
       help COMESA member countries comply with SPS standards should be reported on the
       lines for Trade-Related Agricultural Development or the WTO Agreement on Sanitary &
       Phyto-Sanitary Standards.
   •	 Other Trade Facilitation includes support to increase trade flows that is not categorized
       in one of the other five categories.

Human Resources & Labor Standards: Support of labor standards, worker rights, trade unions, 

workforce development, business education, and the social aspects of liberalization. 

Physical & Economic Infrastructure: Assistance to establish trade-related telecoms, transport, 

ports, airports, power, water, and industrial zones. 

Trade-related Agricultural Development: Includes support for trade-related aspects of the 

agriculture and agribusiness sector. Support that is intended to help countries participate in the

WTO Agreements on Agriculture or SPS should not be included. 

Environmental Sector Trade & Standards: Includes assistance to establish environmental 

standard or to promote environmental technology. 

Governance/ Transparency & Interagency Coordination: Includes support for institutional

reform to improve governance and make policies more transparent, as well as assistance to help 

the different agencies of a host country government function more effectively in the trade policy 

arena. 

Financial Sector Development & Good Governance: Includes financial sector work, monetary 

and fiscal policy, exchange rates, commodity markets, and capital markets. 

Competition Policy & Foreign Investment Incentives: Support for the design and 

implementation of antitrust laws, as well as laws and regulations related to investment and 

investor protections. 

Services Trade Development: Includes all service industry sectors and two sub-components are 

specified – Tourism Sector Development and Other Services Development. 





                                                                                               15

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
